Hi

4

I

Supreme Court, U.S.
FILED

JUW 2 1 2021

vr6
D

No.

OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

MIGUEL GONZALEZ

— PETITIONER

(Your Name)
vs.

Jaime Sorber e» Supt. Of Phoenix

RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

SUPREME COURT OF PENNSYLVANI EASTERN DISTRICT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Miguel Gonzalez, #HX-4697

(Your Name)
1200 Mokychic Drive
(Address)
Collegeville,

PA 19426

(City, State, Zip Code)
NONE
(Phone Number)
5

i

QUESTION(S) PRESENTED

1.

Did the Supreme Court, Superior Court and trial Court commit
reversible error when they held that a new constitutional
right was not created by the Supreme Court's decision in
McCoy v. Louisiana, 138 S.Ct. 1500 (2018)
a. SUGGESTED ANSWER: YES

2.

Did the Supreme Court, Superior Court and trial Court commit
reversible error when they held that the holding in McCoy v.
Louisiana, 138 S.Ct. 1500 (2018) was not retroactive.
a. SUGGESTED ANSWER: YES

l

r
i

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
M All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

LAWRENCE S. KRASNER
DISTRICT ATTORNEY OF PHILADELPHIA
THREE SOUTH PENN SQUARE
PHILADELPHIA, PA 19107-3499
ATTORNEY GENERAL OF PENNSYLVANIA
OFFICE OF THE ATTORNEY GENERAL .
16TH FLOOR
STRAWBERRY SQUARE
HARRISBURG, PA 17120
JAIME SORBER, PHOENIX
SUPERINTENDENT
1200 MOKYCHIC. DRIVE
COLLEGEVILLE, PA 19426

n

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

5

STATEMENT OF THE CASE

4-7

REASONS FOR GRANTING THE WRIT

7-20

CONCLUSION

20

INDEX TO APPENDICES
APPENDIX A
APPENDIX B
APPENDIX C

Order entered May 12, 2021, denying the petition for
allowance of Appeal. No. 685 MAL 2020
Memorandum and Order, of the Superior. Court at 84.0 EDA 2020
entered November 16, 2020, affirming the denial of PCRA Order
Order entered March 15, 2019, in the Court of Common
Pleas of Monroe County.

APPENDIX D
APPENDIX E
APPENDIX F

111

TABLE OF AUTHORITIES CITED
f

Page
Case Law
Commonwealth v. Fowler, 670 A.2d 153, 155 (Pa. Super. 1996)

8

Commonwealth v. Schultz, 707 A.2d 513, 518 (Pa. Super. 1997)...:

9

Commonwealth v. Thomas, 744 A.2d. 713, 717 (Pa. 2000)

■ 7

Florida v. Nixon. 543 U.S. 175, 125 S.Ct. 551, 160 L.Ed.2d 565 (2004)
McCoy v. Louisiana, 138 S.Ct. 1500 (2018)

10

3,4,7,9,10,11,12,13,14,16,17,18,19

Montgomery v. Louisiana, 136 S. Ct. 718 (2016)

15

Penry v. Lynaugh. 492 U.S. 302, 330, 109 S.Ct. 2934, 106 L.Ed.2d 256 (1989)

15

Schriro v. Summerlin, 542 U.S. 348, 352, n. 4, 124 S.Ct. 2519, 159 L.Ed.2d 442 (2004).... 15
Teague v. Lane, 489 U.S. 288, 109 S.Ct. 1060, 103 L.Ed.2d 334 (1989)

15

United States Constitution
U.S. Const. Amdt. 6

12

\

IV

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ 3 has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[XI For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix _A---- to the petition'and is
685 MAE 7070
[ xl reported at
[ ] has been designated for publication but is not yet reported; or,
1x3 is unpublished.

—; °r»

The opinion of the Superior _____________
court
appears at Appendix__B__to the petition and is
IX] reported at KhO EDA 2020_____________
; or,
[ 3 has been designated for publication but is not yet reported; or,
[ 3 is unpublished.
1.

to

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was____ _______________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:_______ •
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

DO For cases from state courts:
The date on which the highest state court decided my case was Mav 12.2021 >
A copy of that decision appears at Appendix A
[ ] A timely petition for rehearing was thereafter denied on the following date:
» and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including ____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

The Sixth Amendment to the United States Constitution provides
in relevant part:
In all criminal prosecutions, the accused shall enjoy the right
to a speedy and public trial, by an impartial Jury of the State
and District wherein the crime shall have been committed, which
District shall have been previously ascertained by law, and to be
informed of the nature and cause of the accusation; to be
confronted with the witnesses against him; to have compulsory
process for obtaining witnesses in his favor, and to have the
assistance of counsel for his defense.
United States Constitution
U.S.,Const. Arndt*. 6

3

IV.

STATEMENT OF THE CASE
This matter comes before the Court on Defendant Miguel Gonzalez’s

(hereinafter “Appellant”) appeal of the Superior Court’s PCRA order dated
November 16, 2020. Appellant asserts that the Superior Court and trial court erred
when they held that a new constitutional right was not created by the Supreme
Court’s decision in McCoy v. Louisiana, 138 S.Ct. 1500 (2018) and when they held
that the holding in McCoy was not retroactive.
Petitioner was convicted on December 8, 2008 of Criminal Homicide Murder
in the First Degree, two counts of Recklessly Endangering Another Person, Former
Convict in possession of a Firearm and Intercept Communications. R.R. p. 112a.
On January 12, 2009, Appellant was sentenced to life imprisonment without parole
followed by incarceration of not less than four, nor more than eight years. R.R. p.
113a.

On February 10,2009, Appellant filed his notice of appeal to the Pennsylvania
Superior Court, which was denied on December 30,2009. R.R. p. 113a. On January
29, 2010, Appellant filed a petition for allowance of appeal with the Pennsylvania
Supreme Court, which was denied on July 14, 2010. R.R. p. 113a.
On December 9, 2010, Appellant filed a pro se petition for federal habeas
corpus relief in the United States District Court for the Eastern District of
Pennsylvania. R.R. p. 113a. By Order dated May 13, 2011, the case was transferred
4

.N

* .

to the United States District Court for the. Middle District of Pennsylvania. R.R. p.
113a. On May 16, 2014, the District Court denied Appellant’s petition. On July 19,
2016, the United States Court of Appeals for the Third Circuit affirmed the District
Court’s Order denying Appellant’s petition. R.R. p. 113a.
On July 19, 2018, Appellant filed a pro se motion for Post-Conviction relief
(PCRA). R.R. p. 124a. A hearing on Appellant’s PCRA petition was held on January
7, 2019. R.R. p. 31a. Appellant’s request for post-conviction relief was denied on
March 15, 2019. R.R. p. 111a. On February 21, 2020, the trial court reinstated
Appellant’s appellate rights and afforded him thirty (30) days to file an appeal with
the Superior Court of Pennsylvania. R.R. p. 121a. Appellant filed a Notice of Appeal
on March 2, 2020. R.R. p. 23a.
Appellant alleged in his PCRA that his trial counsel was ineffective by
questioning his innocence, presenting a diminished capacity defense without
consulting Appellant of the overall trial strategy and contradicting Appellant’s
testimony in court that he was innocent; R.R. p. 127a. Appellant argued a violation
of his constitutional rights under the Sixth Amendment of the U.S. Constitution as
incorporated to the Commonwealth by the Fourteenth Amendment. R.R. p. 126a127a. Specifically, his constitutional rights were violated when he was not able to
decide on the objective of his defense. R.R. p. 126a-127a.

5

Appellant repeatedly professed his innocence to his attorneys. R.R. p. 51-52a.
Appellant refused to accept a plea bargain because he believed in his innocence.
R.R. p. 52a. Appellant did not give his attorneys authority to concede his guilt to
the jury. R.R. p. 52a. Appellant did not give consent to his attorneys to pursue a
diminished capacity defense to the jury. R.R. p. 52 and 59a. He asked his attorneys
to focus on the evidence at trial. R.R. p. 53a. Appellant argues that his attorneys
never even asked him about admitting his guilt to the jury. R.R. p. 54a. The first
time Appellant discovered his attorneys’ plan to admit his guilt was at the trial in
front of the jury. R.R. p. 54a. In stark contrast to his attorneys’ statements in court,
Appellant testified to his innocence of the crimes. R.R. p. 55a.
There was a discussion amongst trial counsel and the District Attorney in
President Judge Ronald E. Vican’s chambers about whether or not trial counsel
obtained Appellant’s permission to concede his guilt. R.R. p. 56and 58a. The
District Attorney had doubts that trial counsel had the authority of Appellant to
confess for him in open court. R.R. p. 58a.
Shockingly, trial counsel admitted at the PCRA hearing that he did not obtain
authority from the Appellant to proceed with a diminished capacity defense with him
accepting responsibility. R.R. p. 81a. Trial counsel admitted that Appellant
maintained his innocence throughout. R.R. p. 82and 102a. Trial counsel admitted
that it was his own choice of defense strategy to concede guilt in order to reduce the
6

charges. R.R. p. 82a. Trial counsel was aware that when placed on the witness
stand, Appellant would profess his innocence. R.R. p. 89a.
Appellant alleges that his constitutional rights were violated when he was not
permitted by trial counsel to decide on the objective of his defense. He further
alleges that his constitutional rights were violated when his trial counsel admitted
his guilt to the jury without his permission.
Appellant now brings the present appeal on the basis that the trial court erred
when it held that a new constitutional right was not created by the Supreme Court’s
decision in McCoy v. Louisiana, 138 S.Ct. 1500 (2018), holding that a criminal
defendant has a constitutional right to decide the objective of his defense and when
the trial court held that the holding in McCoy was not retroactive.
A.

Argument

1. The Law of the Commonwealth Historically Was That Trial Counsel
Retained Strategy Decisions
The Superior Court erred because McCoy v. Louisiana, 138 S. Ct. 1500
(2018), created a new constitutional right in Pennsylvania, because courts in
Pennsylvania have historically denied PCRA matters holding that trial counsel
inherently has broad discretion to determine course of defense tactics employed. See
Commonwealth v. Thomas, 744 A.2d. 713, 717 (Pa. 2000); Commonwealth v.

7

Fowler, 670 A.2d 153, 155 (Pa. Super. 1996) and Commonwealth v. Schultz, 707
A.2d 513, 518 (Pa. Super. 1997).
In Commonwealth v. Fowler, .670 A.2d 153, 155 (Pa. Super. 1996), the court
held that “[tjrial counsel inherently has broad discretion to detennine the course of
defense tactics employed.” Id. The record revealed defense counsel made a tactical
decision not to object to evidentiary tapes, as it was their defense the voice on the
tape at pertinent times was not that of appellant. Id. at 156. In light of the defense,
the court held that it was a reasonable strategy to allow the tapes to be played for the
jury. Appellant was not entitled to relief simply because the strategy was
unsuccessful.
Similarly, in Commonwealth v. Thomas, 744 A.2d. 713, 717 (Pa. 2000),
appellant claimed that his counsel failed to call certain witnesses who would have
testified to seeing the victim in a bar prior to the murder with two men, one of whom
the witnesses identified as appellant. Id. The witnesses supposedly would have given
contradictory descriptions of the two men who were with the victim, thereby diluting
the identification of appellant. Id. “Trial counsel, instead of calling these witnesses,
made the strategic decision to call only one witness who testified that he saw the
victim in the bar with her boyfriend.” Id. The court found that this testimony was
consistent with appellant’s theory that the boyfriend actually murdered the victim.

8

Id. “Therefore, it was a reasonable strategy by counsel not to call the witnesses and
was therefore not ineffective assistance.” Id.
Likewise in Commonwealth v. Schultz, 707 A.2d 513, 518 (Pa. Super. 1997),
appellant claimed that trial counsel was ineffective for failing to make an opening
statement. Id. at 518. “It is well-established that the decision whether to make an
opening statement is a matter of trial strategy that is vested in the discretion of a
defendant’s attorney.” Id. The court noted that there are instances in which counsel
may have a reasonable strategy designed to effectuate his client’s interests in
waiving an opening statement and failed to find such a strategy decision ineffective
assistance of counsel . Id.
Based upon the foregoing case law, it is clear that the law in the
Commonwealth had historically been that it was not ineffective assistance of counsel
for the trial counsel to determine the trial strategy despite the objections of his
defendant client. As discussed below in Section B, the Supreme Court created a new
constitutional right in the case of McCoy v. Louisiana, 138 S. Ct. 1500 (2018), which
required trial counsel to permit criminal defendants to determine the objective of
their own defense. Therefore, Appellant respectfully requests that this Honorable
Court find that because of the Court’s error, Appellant should be granted the right to
a new trial.

9

<i •>

2. McCoy v. Louisiana Created a New Constitutional Right
The Superior Court erred when it held that a new constitutional right was not
created in the case of McCoy v. Louisiana, 138 S. Ct. 1500 (2018).

In McCoy, the

defendant vociferously insisted that he did not engage in the charged acts and
adamantly objected to any admission of guilt. Id. at 1505. Yet the trial court
permitted counsel, at the guilt phase of a capital trial, to tell the jury the defendant
committed three murders and he was guilty. Id. The Supreme Court held as follows:

[T]hat a defendant has the right to insist that counsel refrain from
admitting guilt, even when counsel’s experienced-based view is
that confessing guilt offers the defendant the best chance to avoid
the death penalty. Guaranteeing a defendant the right “to have
the Assistance of Counsel for his defense,” the Sixth Amendment
so demands. With individual liberty—and, in capital cases, life—
at stake, it is the defendant’s prerogative, not counsel’s, to decide
on the objective of his defense: to admit guilt in the hope of
gaining mercy at the sentencing stage, or to maintain his
innocence, leaving it to the State to prove his guilt beyond a
reasonable doubt.
Id. (emphasis in original).
This is a newly created constitutional right, at the very least as it applied to
the Commonwealth of Pennsylvania, which historically has permitted great latitude
to trial counsel to determine trial strategy as explained supra in Section A. Also, the
court noted that it was revising prior case law. In Florida v. Nixon, 543 U.S. 175,
125 S.Ct. 551, 160 L.Ed.2d 565 (2004), the Court considered whether the

10

Constitution bars defense counsel from conceding a capital defendant’s guilt at trial
“when [the] defendant, informed by counsel, neither consents nor objects,” id., at
178, 125 S.Ct. 551. In that case, defense counsel had several times explained to the
defendant a proposed guilt-phase concession strategy, but the defendant was
unresponsive. Id., at 186, 125 S.Ct. 551. We held that when counsel confers with the
defendant and the defendant remains silent, neither approving nor protesting
counsel’s proposed concession strategy, id., at 181,125 S.Ct. 551, “[no] blanket rule
demand[s] the defendant’s explicit consent” to implementation of that strategy, id.,
at 192, 125 S.Ct. 551. However, in contrast to Nixon, the defendant in McCoy
vociferously insisted that he did not engage in the charged acts and adamantly
objected to any admission of guilt. McCoy, 138 S. Ct. at 1505.
The court found that trial management has historically been the lawyer’s
province, and in Pennsylvania, courts have historically denied PCRA petitions based
upon the trial counsel’s decisions concerning strategy. Id. Counsel provides his or
her assistance by making decisions such as what arguments to pursue, what
evidentiary objections to raise, and what agreements to conclude regarding the
admission of evidence. Id. at 1508. Some decisions, however, the court held are
reserved for the client, such as whether to plead guilty, waive the right to a jury trial,
testify in one’s own behalf,.or forgo an appeal. Id. “When a client expressly asserts
f

that the objective of “his defense” is to maintain innocence of the charged criminal
11

acts, his lawyer must abide by that objective and may not override it by conceding
guilt.” Id. at 1509; (court citing U.S. Const. Amdt. 6.) (emphasis in original). The
Court held that it was not open to trial counsel to override the defendant’s objection
to admitting guilt.
“Violation of a defendant’s Sixth Amendment-secured autonomy ranks as
error of the kind our decisions have called “structural”; when present, such an error
is not subject to harmless-error review.” Id. at 1511. “Structural error “affect[s] the
framework within which the trial proceeds,” as distinguished from a lapse or flaw
that is “simply an error in the trial process itself.” Id. “An error may be ranked
structural, we have explained, “if the right at issue is not designed to protect the
defendant from erroneous conviction but instead protects some other interest,” such
as “the fundamental legal principle that a defendant must be allowed to make his
own choices about the proper way to protect his own liberty.” Id. The Court held
that counsel’s admission of a client’s guilt over the client’s express objection is error
structural in kind. “Such an admission blocks the defendant’s right to make the
fundamental choices about his own defense.” Id. “And the effects of the admission
would be immeasurable, because a jury would almost certainly be swayed by a
lawyer’s concession of his client’s guilt.” Id. Therefore, the Supreme Court held that
McCoy must therefore be accorded a new trial without any need first to show
prejudice.
12

It is clear that the Supreme Court in McCoy created a new constitutional right,
at least a new constitutional right as applied to the Commonwealth of Pennsylvania
based upon Section A, supra. A defendant must be afforded the right to not admit
guilt despite the objections of trial counsel.

A criminal defendant has the

constitutional right to decide the objectives of his defense.
In the case at bar, Appellant repeatedly professed his innocence to his
attorneys. R.R. p. 51-52a. Appellant refused to accept a plea bargain because he
believed in his innocence. R.R. p. 52a. Appellant did not give his attorneys
authority to concede his guilt to the jury. R.R. p. 52a. Appellant did not give
consent to his attorneys to pursue a diminished capacity defense to the jury. R.R. p.
52 and 59a. He asked his attorneys to focus on the evidence at trial. R.R. p. 53a.
Appellant argues that his attorneys never even asked him about admitting his guilt
to the jury. R.R. p. 54a. The first time Appellant discovered his attorneys’ plan to
admit his guilt was at the trial in front of the jury. R.R. p. 54a. In stark contrast to
his attorneys’ statements in court, Appellant testified to his innocence of the crimes.
R.R. p. 55a.
There was a discussion amongst trial counsel and the District Attorney in
President Judge Ronald E. Vican’s chambers about whether or not trial counsel
obtained Appellant’s permission to concede his guilt. R.R. p. 56and 58a. The

13

District Attorney had doubts that trial counsel had the authority of Appellant to
confess for him in open court. R.R. p. 58a.
Shockingly, trial counsel admitted at the PCRA hearing that he did not obtain
authority from the Appellant to proceed with a diminished capacity defense with him
accepting responsibility. R.R. p. 81a. Trial counsel admitted that Appellant
maintained his innocence throughout. R.R. p. 82and 102a. Trial counsel admitted
that it was his own choice of defense strategy to concede guilt in order to reduce the
charges. R.R. p. 82a. Trial counsel was aware that when placed on the witness
stand, Appellant would profess his innocence. R.R. p. 89a.
Appellant was denied the constitutional right to profess his innocence and
require the Commonwealth to meet its burden of proving his guilt beyond a
reasonable doubt. Therefore, Appellant respectfully requests that this Honorable
Court find that because of the Court’s error, Appellant should be granted the right to
a new trial.
3. McCoy v. Louisiana Should be Retroactively Applied
The Superior Court erred when it held that the new constitutional right
created by McCoy v. Louisiana, 138 S. Ct. 1500 (2018) did not apply retroactively.
Because McCoy v.'Louisiana espoused a substantive or watershed newly created
constitutional right, it should be retroactively applied.

14

Justice O’Connor’s plurality opinion in Teague v. Lane, 489 U.S. 288, 109
S.Ct. 1060, 103 L.Ed.2d 334 (1989), set forth a framework for retroactivity in cases
on federal collateral review. Under Teague, a new constitutional rule of criminal
procedure does not apply, as a general matter, to convictions that were final when
the new rule was announced. Teague recognized, however, two categories of rules
that are not subject to its general retroactivity bar. First, courts must give retroactive
effect to new substantive rules of constitutional law. Substantive rules include “rules
forbidding criminal punishment of certain primary conduct,” as well as “rules
prohibiting a certain category of punishment for a class of defendants because of
their status or offense.” Penry v. Lynaugh, 492 U.S. 302, 330, 109 S.Ct. 2934, 106
L.Ed.2d 256 (1989); see also Teague, supra, at 307, 109 S.Ct. 1060. Although
Teague describes new substantive rules as an exception to the bar on retroactive
f

application of procedural rules, this Court has recognized that substantive rules “are
more accurately characterized as ... not subject to the bar.” Schriro v. Summerlin,

542 U.S. 348, 352, n. 4, 124 S.Ct. 2519, 159 L.Ed.2d 442 (2004). Second, courts
must give retroactive effect to new “ ‘“watershed rules of criminal procedure”
implicating the fundamental fairness and accuracy of the criminal proceeding.’ ” Id.,
at 352, 124 S.Ct. 2519; see also Teague, 489 U.S., at 312-313, 109 S.Ct. 1060.
In Montgomery v. Louisiana, 136 S. Ct. 718 (2016), the Supreme Court held
that when a new substantive rule of constitutional law controls the outcome of a case,
15

the Constitution requires state collateral review courts to give retroactive effect to
that rule. Id. at 729 “Teague's conclusion establishing the retroactivity of new
substantive rules is best understood as resting upon constitutional premises. That
constitutional command is, like all federal law, binding on state courts.” Id. The
court held as follows:
This Court’s precedents addressing the nature of substantive
rules, their differences from procedural rules, and their history of
retroactive application establish that the Constitution requires
substantive rules to have retroactive effect regardless of when a
conviction became final.
Id. at 729. “By holding that new substantive rules are, indeed, retroactive, Teague
continued a long tradition of giving retroactive effect to constitutional rights that go
beyond procedural guarantees.” Id. at 730.
A criminal defendant’s Sixth Amendment constitutional right to determine
whether he will admit his or her guilt as set forth in McCoy is a substantive right as
well as a watershed right that requires retroactivity as set forth in Teague. The very
right to determine one’s right to plead guilty or to abandon a defense to guilt is a
right envisioned by Teague to be applied retroactively. The right to say “I am not
guilty” is a basic and fundamental constitutional right. Teague would mandate a
determination of retroactivity in the instant case where Appellant was denied the
very basic constitutional right to profess his innocence and require the
Commonwealth to meet its burden of proving his guilt beyond a reasonable doubt.
16

This Honorable Court's opinion in McCoy went so far as to
specifically hold the trial court's error was "structural'1. McCoy,
supra at 1511. This required a new trial without the heed to find
prejudice. Id. The McCoy decision was clearly substantive and
watershed and requires a determination of retroactivity.
Therefore, Appellant . respectfully requests that this
Honorable Supreme Court find that because of the. Pennsylvania
Supreme Court denied his allowance and .of the Superior Court's
error, Appellant should be granted the right to appeal seeking a
new trial.

17

REASONS FOR GRANTING THE WRI
The issues of whether a new constitutional right was created
by this Honorable Supreme Court's decision in McCoy v. Louisiana,
138 S.Ct. 1500 (2018), and whether that decision applies to.the
petitioner retroactively should be allowed to be heard on appeal
subject to Pa.R.A.P. 1114(b)(4):
Pa.R.A.P. 1114(b):
(4): The question presente is one of such substantial
public importance as to require prompt and definitive
resolution by the Pennsylvania Supreme Court.
This ruling affects criminal defendants throughout the Common
wealth. A defendant must be afforded the right to. not admit guilt
despite the objections of trial counsel. A criminal defendant has
the constitutional right to decide the objectives of his defense.
This issue is of such substantial public importance that it
requires prompt and definitive resolution by this Honorable Court.
The Pennsylvania Supreme Court denied his request for
allowance of appeal, the Superior Court and trial court both erred
when they held that a new constitutional right was not created by
this Honorable Court's decision in McCoy v. Louisiana, 138 S.Ct.
1500 (2018), holding that a criminal defendant has a
constitutional right to decide the objective of his defense and
when the trial courat held that the holding in McCoy was not

18

•; ♦

retroactive.
•;

Appellant's trial counsel admitted his guilt to the jury,
despite the fact that he did not have Appellant's express
permission to do so, In Fact, Appellant maintained his innocence
throughout the trial strategy time frame and the trial. The law
of the Commonwealth had previously permitted trial counsel great
latitude to decide trial strategy and obtaining Appellant's
permission to determine trial strategy was not previously
required.
However, this Supreme Court's decision in McCoy created a
new constitutional right in the Commonwealth requiring trial
counsel to permit their defendant client to decide the objective
of their own defense. Moreover, because this was a substantive
and also a watershed new constitutional right, its application
was retroactive to Appellant's case.
Because the Pennsylvania Supreme Court denied his Allowance
of appeal and the Superior Court and trial court erred, it arrived
at a manifestly unjust and legally flawed outcome. Appellant
respectfully requests to be remanded for a new trial at which he
be permitted to decide the objective of his defense. Appellant
was denied a fair trial.
Therefore, Petitioner's respectfully requesting this
Honorable United States Supreme Court exercise its supervisory

19

authority to reverse the decision of the Pennsylvania Supreme
Court, Superior Court and trial Court. ^ ■

CONCLUSION
The petition for a writ of certiorari should be granted.
Wherefore, Petitioner seeks Certiorari to appeal to this
Honorable Supreme Court. The Pennsylvania Supreme Court erred when
denied his allowance of appeal,the Superior Court erred when it
held that a new. constitutional right was not created by this
Honorable Court's decision in McCoy v. Louisiana, 138 S.Ct. 1500
(2018) and when it held that holding in McCoy was not retroactive.
Appellant respectfully requests that this Honorable Court
permit Petitioner Certiorari to appeal in order to reverse the
decision of the Pennsylvania Supreme Court, the Superior Court
and remand for a new trial wherein Appellant has the Sixth
Amendment constitutional right to decide the objective of his
defense.
Respectfully submitted,

By:
Miguel Gonzalez, HX-4697
Pro se, Appellant

